July 31, 2002
Audit Report No. 02-025


Division of Supervision Implementation
of Gramm-Leach-Bliley Act Provisions
                                     CONTENTS

BACKGROUND                                                                        2

     Gramm-Leach-Bliley Act of 1999                                               2
     GLBA Titles I, II, and III, Subtitle A                                       2
     Risks to FDIC and the Bank Insurance Fund                                    4
     GLBA-Related Activity of State Nonmember Banks                               4
     FDIC Approach to Addressing GLBA                                             5

RESULTS OF AUDIT                                                                  5

PROCEDURES FOR SHARING INFORMATION WITH THE SEC                                   7

     •   GLBA §115. Examination of Investment Companies                           7
     •   GLBA §217. Removal of the Exclusion from the Definition of Investment
         Adviser for Banks that Advise Investment Companies                       7
     •   GLBA §220. Interagency Consultation                                      8
     •   GLBA §222. Statutory Disqualification for Bank Wrongdoing                8

Recommendation                                                                    9

DOS POLICIES AND PROCEDURES ON “RELATED ORGANIZATIONS”                            9
AND BANK RECORDKEEPING REQUIREMENTS

     DOS Policies and Procedures on “Related Organizations”                       9

            •    GLBA §107. Cross Marketing Restriction; Limited Purpose         10
                 Bank Relief; Divestiture
            •    Amended Bank Holding Company Act §4(n) “Authority to retain     10
                 limited non-financial activities and affiliations,” and §4(o)
                 “Regulation of certain financial holding companies”
            •    GLBA §121(b) “Sections 23A and 23B of the Federal Reserve       11
                 Act"

     DOS Examination Guidance on Bank Recordkeeping Requirements                 12

Recommendation                                                                   12

DOS INTERNAL DATABASES                                                           13

     Case Administration System, ViSION, and SIMS Databases Should Be            13
     Revised to Add Fields for Financial Holding Companies

     Changes to Information Systems Based on Rules and Regulations for §204.     14
     Information Sharing, Should Be Anticipated

Recommendations                                                                  14
CORPORATION COMMENTS AND OIG EVALUATION                       14

APPENDIX I:     OBJECTIVES, SCOPE, AND METHODOLOGY            19

APPENDIX II:    GLBA TABLE OF CONTENTS                        21

APPENDIX III:   STATE NONMEMBER BANK NONINTEREST INCOME       25

APPENDIX IV:    STATUS OF ITEMS ON THE FDIC “GLBA CORPORATE   27
                PROJECT LIST”

APPENDIX V:     DOS GUIDANCE ON GLBA SECTIONS THAT REQUIRE    31
                CHANGES TO EXAMINATION POLICIES AND
                PROCEDURES

APPENDIX VI:    CORPORATION COMMENTS                          34

APPENDIX VII:   SECURITIES AND EXCHANGE COMMISSION            38
                COMMENTS

FIGURE:         Banks and New GLBA-Type Affiliates             3




                                     2
Banks, Securities Firms, and Insurance Companies; Title II – Functional Regulation; and Title III –
Insurance, Subtitle A – State Regulation of Insurance. 5


BACKGROUND

Gramm-Leach-Bliley Act of 1999

The Gramm-Leach-Bliley Act of 1999 impacts the types of financial activities that banks and their
affiliates can conduct. GLBA also affects how various bank and affiliate activities are regulated and
examined. According to the Statement of Managers, H.R. Conference Report 106-434 (1999
U.S.C.C.A.N. 245, 247), GLBA eliminates many federal and state law barriers to affiliations among
banks and securities firms, insurance companies, and other financial services providers. Financial
organizations are provided flexibility in structuring these new financial affiliations through a holding
company structure or a “financial subsidiary.” 6 The legislation preserves the role of the FRB as the
“umbrella” supervisor for holding companies but also incorporates a system of “functional
regulation” to utilize the strengths of the various federal and state financial supervisors. 7 GLBA
stipulates that banks may not participate in the new financial affiliations unless they are well
capitalized and well managed. The appropriate regulators are given clear authority to address any
failure to maintain these safety and soundness standards in a prompt manner.8

In addition to financial services affiliations and functional regulation, GLBA also has titles or
sections relating to unitary thrift holding companies, protecting the privacy of consumer financial
information, Federal Home Loan Bank system modernization, automated teller machine fee reform,
and the Community Reinvestment Act. As noted previously, these titles or sections were not within
the scope of our audit.

GLBA Titles I, II, and III, Subtitle A

Safety and soundness concerns stemming from GLBA derive from the increased affiliations among
banks, securities firms, insurance companies, and other financial services providers and the revised
5
  GLBA’s Table of Contents is provided in Appendix II. The text of GLBA can be found at the Library of Congress Web
site for legislative information on the Internet, http://thomas.loc.gov. Refer to Public Law 106-102.
6
  “Financial subsidiaries” are bank operating subsidiaries engaged in some of the new financial activities permitted
for holding companies and their affiliates.
7
 “Functional regulation” means that various financial activities should be overseen by the regulator with the
corresponding regulatory experience: banking is to be supervised by banking regulators, securities activities by the
SEC and state regulators, and insurance activities by state insurance regulators.
8
  GLBA maintains the FDIC’s authority to examine bank affiliates. §112. Authority of State Insurance Regulator
and Securities and Exchange Commission and §115. Examination of Investment Companies uphold the FDIC’s
authority to examine an affiliate of an insured depository institution to determine the nature and effect of the
relations. GLBA also maintains the FDIC’s authority to regulate bank subsidiaries. §114. Prudential Safeguards,
upholds the FDIC’s authority to impose restrictions or requirements on relationships or transactions between a state
nonmember bank and a subsidiary that are appropriate to avoid significant risk or other adverse effects such as
undue concentration of resources, decreased or unfair competition, or conflicts of interest.


                                                          2
regulatory authorities and structure – areas that are addressed under GLBA Titles I, II, and III,
Subtitle A.

        •    Title I – Facilitating Affiliation Among Banks, Securities Firms, and Insurance
             Companies allows bank holding companies to become “financial holding companies”
             and expand into a wide variety of services that are “financial in nature.” Also, banks are
             allowed to engage in these “financial in nature” activities through “financial
             subsidiaries.” The following figure illustrates the relationship between banks and these
             new GLBA-authorized affiliates. 9 For both “financial holding companies” and
             “financial subsidiaries,” regulatory safeguards and limitations on activities apply.
             Title I maintains the FRB’s broad or “umbrella” regulatory authority over holding
             companies and their subsidiaries. Title I also promotes “functional regulation” by
             establishing primary regulators that other regulators depend on and consult.

                             Figure: Banks and New GLBA-Type Affiliates




        •    Title II – Functional Regulation, affects the securities industry and bank securities-related
             activities. The broad exemption that banks had from SEC regulation is replaced by more
             limited exemptions. The SEC and FRB are to work together to establish rules for new
             hybrid financial products. Banks acting as investment advisers to mutual funds are to
             register with the SEC. Title II authorizes a new and voluntary “investment bank holding
             company” structure, to be supervised by the SEC.

        •    Title III – Insurance, Subtitle A – State Regulation of Insurance, defines the types of
             insurance activities that banks can engage in and establishes relative responsibilities
             between federal and state officials for the regulation and examination of insurance
             activities and affiliations. Like Title II dealing with securities, Title III promotes
9
 Federal Reserve Act (FRA) §23A(a) Restrictions on Transactions with Affiliates, includes in its definition of
affiliate, “any company that controls the member bank and any other company that is controlled by the company that
controls the member bank affiliate” and “a bank subsidiary of the member bank.” FRA §23A also applies to state
nonmember banks.


                                                        3
             functional regulation regarding insurance. Title III affirms the historical lead authority of
             state regulation of the insurance business.

Risks to FDIC and the Bank Insurance Fund

Increased affiliation between state nonmember banks and other financial services providers engaged
in expanded financial activities – in a new functional regulation environment – poses risks to the
FDIC and the Bank Insurance Fund:

        •    The increased number and types of affiliations heighten the risk that an affiliate might
             access the assets of a bank in violation of federal law and regulations.
        •    The need for enhanced communication and coordination in a functional regulation
             environment increases the risk that some bank activities might not be examined or that
             results of examinations requiring regulatory action will be slow to be addressed.
        •    “Financial in nature” activities undertaken by bank affiliates might be new or complex
             and difficult to regulate and examine. Large losses could go undetected and continue to
             mount.
        •    New “financial in nature” activities might have unforeseen potential liabilities which, if
             realized, might be applied to insured institutions.

GLBA-Related Activity of State Nonmember Banks

Federal Reserve System data indicate that, as of December 31, 2001, the bank holding companies
of 480 of a total of 4,971 state nonmember banks had elected to become financial holding
companies. 10

Consolidated Report of Condition and Income (Call Report) regulatory capital data indicate that as
of December 31, 2001, six state nonmember banks reported equity in financial subsidiaries;
however, FDIC’s DOS has subsequently determined that five of these banks misreported and only
one owns a financial subsidiary.

Call Report noninterest income data indicate that, as of December 31, 2001, large numbers of state
nonmember banks are generating income from activities that may be affected by GLBA regulations
and examination requirements. For example, from a total of 4,971 state nonmember banks, 1,174 or
24 percent report income from “investment banking, advisory, brokerage, and underwriting fees and
commissions” – activities affected by GLBA Title II – Functional Regulation, Subtitle A – Brokers
and Dealers, particularly because it designates the SEC as primary regulator. Also, 2,433 or
49 percent of state nonmember banks report income from “insurance commissions and fees” –
activities that are affected by GLBA Title III – Insurance, Subtitle A – State Regulation of
Insurance.11 Appendix III provides a more complete analysis of noninterest income data.

10
  We could not assess the overall extent of state nonmember banks’ GLBA-related activities using available data, in
part because it is difficult to identify non-bank affiliates and aggregate the data.
11
  These are not new activities authorized by GLBA. With the possible exception of financial subsidiaries, GLBA
does not authorize new in-house state nonmember bank activities but might affect how they are regulated and
examined.

                                                        4
FDIC Approach to Addressing GLBA

Upon enactment of GLBA, an FDIC agency-wide meeting was held to assign Divisions
responsibility for each section of the law. From this process, a “GLBA Corporate Project List” was
developed. DOS has been assigned multiple sections on the Project List and for many sections
serves as the lead division. A closeout procedure consisting of an explanation and certification is
required for each GLBA section on the Project List. The Legal Division maintains the list. As of
May 2, 2002, 49 of 62 items included on the Project List have been closed out. Appendix IV shows
the status of each item on the Project List as of that date. Using a combination of personal contacts,
the Federal Register, industry publications, and database search vehicles such as Lexis, the FDIC
Legal Division monitors other agencies’ GLBA activities, including the issuance of regulations.
Other agencies usually notify the Legal Division of pending or final action and the Legal Division
then notifies DOS.

GLBA sections on the Project List have been assigned to individuals within various DOS sections
and branches based upon their areas of expertise. Also, DOS created the position of GLBA Project
Coordinator to monitor and coordinate the Division’s GLBA-related activities.

DOS typically issues examination policies and procedures as Regional Directors Memorandums
(RD Memos), Examination Documentation Modules (ED Modules), revisions to the Manual of
Examination Policies, and revisions to the Trust Examination Manual. Consistent with that
approach, DOS has issued guidance on specific GLBA areas in the form of RD Memos and has
addressed securities-related issues in amendments to the Trust Examination Manual.


RESULTS OF AUDIT

DOS has established coordination arrangements with other federal regulatory agencies through
working groups, personal contacts, and monitoring activities. DOS representatives attend periodic
meetings of the informal Cross-Sector Regulatory Working Group, consisting of representatives
from each of the financial regulatory agencies. The purpose of the Group is to provide for
communication and increased awareness of each agency’s GLBA-related responsibilities and
activities. For state nonmember bank insurance activities, “Information Sharing and Confidentiality
Agreements” with state insurance commissioners have been developed and are being entered into on
a state-by-state basis.12 As of March 6, 2002, agreements had been completed with 36 states. Also,
DOS representatives are attending quarterly meetings of the National Association of Insurance
Commissioners.

DOS and Legal Division personnel have participated in an interagency working group addressing
information sharing with the SEC. However, an information sharing agreement with the SEC
dating from June 17, 1987 needs to be updated to reflect GLBA considerations. The effect of not
having updated this agreement is that DOS examinations staff do not have current procedures

12
  The purpose of the Agreements is to facilitate the exchange of examination and other information regarding
insurance companies and affiliate depository institutions, as authorized by GLBA §307. Interagency Consultation.
The Agreements cover exchange of information on enforcement actions, consumer complaints, and other
supervisory activities.

                                                        5
regarding information sharing with the SEC. This is important because GLBA places restrictions
on the examination of bank and affiliate securities activities, as described below. Without
current procedures, information requests have to be developed and processed on a case-by-case
basis.

With respect to DOS’s updating of policies and procedures to address restrictions and safeguards
in GLBA, DOS has updated or created related policies and procedures to address most of the
GLBA sections covered in our review. However, two sources of reference for examiners, the
Manual of Examination Policies and a Supplemental ED Module, have not been updated with
respect to guidance on “Related Organizations” to address the issue of bank relations with
affiliates, including holding companies. The effect of not updating these policies and procedures
is that examination staff have lacked comprehensive guidance on this aspect of the law.

SEC has not issued final rules for GLBA §201. Definition of Broker and §202. Definition of
Dealer, both of which replace the broad exemption banks had from SEC regulation with more
limited exemptions. Once final rules are issued, the FDIC and other federal banking agencies
will issue rules for §204. Information Sharing, which requires that recordkeeping requirements
be established for banks relying on the limited exemptions contained in §201 and §202. DOS is
waiting for final regulations on §204 before issuing guidance in its examination policies and
procedures.

As for the overall timeliness of updating GLBA-related policies and procedures, Appendix V
compares when GLBA sections became effective to when guidance was issued. Guidance on
Title I has been issued for some sections, while other sections have been partially addressed or
not at all. Guidance on Title II has been issued except for bank recordkeeping requirements,
which are dependent on regulations to be issued by SEC. Guidance has been issued for all of
Title III, Subtitle A.

While FDIC has access to Federal Reserve System data on financial holding companies, DOS
information systems do not currently identify banks that are directly or indirectly engaged in
GLBA-affected activities. Several internal databases used by DOS to describe bank and holding
company structure information do not identify GLBA-related entities such as financial holding
companies and financial subsidiaries. The DOS databases for bank and holding company
structure information also do not include nonbank affiliates such as insurance companies and
securities firms. Not having this information detracts from the ability to assess risk; examine for
transactions with affiliates; and, consistent with the premise of functional regulation, coordinate
with primary regulators overseeing financial activities corresponding to their areas of expertise.

Also concerning DOS information systems, the recordkeeping requirements in §204. Information
Sharing could identify banks engaged in securities-related activities that are exempt from SEC
oversight. This information would be of help in examinations and for coordinating with SEC. Early
analysis of §204. Information Sharing’s impact on DOS information systems is important because of
the time requirements to budget project funds and coordinate with other FDIC divisions to
accomplish system modifications.




                                                 6
PROCEDURES FOR SHARING INFORMATION WITH THE SEC

An agreement has existed since June 17, 1987 establishing procedures for the FDIC to access the
SEC’s nonpublic information. The agreement has not been updated and broadened to address
certain GLBA sections described below. Progress has not been made in revising the agreement
in part because the SEC has given priority to working with the FRB and the OCC. DOS and
Legal Division personnel believe that state nonmember bank investment company and
investment adviser activity is minimal and so have given the matter a low priority. The effect of
not having updated this agreement is that DOS examinations staff do not have current procedures
regarding notifications of, and information sharing with, the SEC. Without current procedures,
information requests have to be developed and processed on a case-by-case basis.

Procedures for the exchange of information with the SEC have not been updated to address the
following GLBA sections:

       •   GLBA §115. Examination of Investment Companies

       GLBA §115. Examination of Investment Companies, prohibits federal banking agencies,
       including the FDIC, from examining any registered investment company that is not a bank
       holding company or a savings and loan holding company. It also requires the SEC to
       provide to any federal banking agency, upon request, the results of any examination, reports,
       records, or other information with respect to any registered investment company to the extent
       necessary for the agency to carry out its statutory responsibilities.

       The “GLBA Corporate Project List” indicates that §115 is to be addressed in a
       memorandum of understanding (MOU) with the SEC. DOS and SEC have not agreed to
       procedures to address §115 through an MOU or by other means.

       •   GLBA §217. Removal of the Exclusion from the Definition of Investment Adviser
           for Banks that Advise Investment Companies

       §217 removes the exclusion of banks from the definition of investment adviser under the
       Investment Advisers Act of 1940. The effect is that banks performing investment advisory
       services are now subject to the same SEC regulation as other investment advisers. The
       section also provides that banks can establish a separately identifiable department (SID) in
       which such services are performed; the department and not the bank shall be deemed to be
       the investment adviser and subject to SEC regulation and examination.

       The “Project List” states that SEC has not issued rules for §217, the Section is addressed
       in the Trust Examination Manual, and no further action is needed. DOS representatives
       believe that §217 will affect only state nonmember bank trust departments. However, in
       our view, investment advisory services provided by a SID might exist separate and
       outside of a trust department.




                                                 7
         •   GLBA §220. Interagency Consultation

         §220. Interagency Consultation, amends the Investment Advisers Act of 1940, adding a
         new §210A. Consultation. This new section requires federal banking regulators and the
         SEC to share the results of any examination, reports, records, or other information
         regarding the investment advisory activities of any bank, bank holding company, or SID
         registered as an investment adviser. If the bank has a SID that is a registered investment
         adviser, GLBA requires the bank regulator to share with the SEC the results of any
         examination, reports, records or other information regarding the bank.

         The “Project List” indicates that work on §220 has been completed and no further action
         is needed. DOS’s Trust Examination Manual has been revised to include mention of
         §220. However, an MOU between the FDIC and SEC addressing the requirements of
         §220 has not been developed to facilitate the exchange of information between the two
         agencies.

         •   GLBA §222. Statutory Disqualification for Bank Wrongdoing

         §222. Statutory Disqualification for Bank Wrongdoing amends the Investment Company
         Act of 1940 to include banks as organizations that are disqualified from investment
         advising if they have been convicted of a felony or misdemeanor or have otherwise been
         enjoined because of their securities activities.

         The “Project List” shows that §222 has been closed and does not indicate that any action
         was taken.

Based on the June 17, 1987 agreement between the FDIC and the SEC, DOS issued an RD
Memo titled, “Access to Securities and Exchange Commission’s Nonpublic Information” (no.
87-129, dated July 16, 1987). The language of the sample documentation request letters,
provided as attachments to the RD Memo, relates to criminal or civil investigations 13 and is not
clearly applicable to information with respect to any registered investment company (§115) or
investment adviser (§217, §220, and §222). DOS and Legal Division personnel have
participated in an inter-agency working group addressing information sharing with the SEC.
DOS and Legal Division personnel have suggested that progress has not been made in revising
the agreement to allow the FDIC access to the SEC’s nonpublic information in part because the
SEC has given priority to working with the FRB and the OCC. DOS and Legal Division
personnel believe that state nonmember bank investment company and investment adviser
activity is minimal and so have given the matter a low priority.




13
   The sample documentation request letters contain the verbiage, “This request is made in connection with an
ongoing lawful investigation or official proceeding inquiring into a violation of, or failure to comply with, a criminal
or civil statute or regulation, rule or order issued pursuant thereto, being conducted by [name of requesting agency].”

                                                           8
Recommendation

We recommend that the Director, DOS:

       (1) In conjunction with the Legal Division and the SEC, develop procedures for
           information sharing consistent with GLBA §115. Examination of Investment
           Companies, §217. Removal of the Exclusion from the Definition of Investment
           Adviser for Banks that Advise Investment Companies, §220. Interagency
           Consultation, and §222. Statutory Disqualification for Bank Wrongdoing.


DOS POLICIES AND PROCEDURES ON “RELATED ORGANIZATIONS” AND BANK
RECORDKEEPING REQUIREMENTS

The DOS Manual of Examination Policies and Supplemental ED Module guidance on “Related
Organizations,” covering significant areas affected by GLBA, particularly bank relations with
affiliates, have not been updated. The DOS practice of making comprehensive, as opposed to
piecemeal, revisions to the Manual of Examination Policies has affected the timing of the update.
Manual of Examination Policies Section 4.3 “Related Organizations” will be revised before the
Supplemental ED Module on related organizations. The effect of not updating these policies and
procedures is that examination staff have lacked comprehensive guidance on examining GLBA’s
impact on bank affiliates.

Appendix V compares when GLBA sections became effective to when guidance was issued.
Guidance on Title I was issued for some sections, while other sections have been partially addressed
or not at all. (These other sections are described below under DOS Policies and Procedures on
“Related Organizations.”) Guidance on Title II has been issued except for bank recordkeeping
requirements, which are dependent on regulations to be issued by the SEC. (This matter is
described below under DOS Examination Guidance on Bank Recordkeeping Requirements.)
Guidance has been issued for all of Title III, Subtitle A.

Once the SEC issues final rules for GLBA §201. Definition of Broker and §202. Definition of
Dealer, both of which replace the broad exemption banks had from SEC regulation with more
limited exemptions, the FDIC and other federal banking agencies will issue rules for §204.
Information Sharing, which requires that recordkeeping requirements be established for banks
relying on the limited exemptions contained in §201 and §202. DOS plans to issue guidance on
§204 after final regulations have been issued. Because banks are not being asked to comply until
final regulations are issued, the lack of DOS guidance has no effect.

DOS Policies and Procedures on “Related Organizations”

The Manual of Examination Policies Section 4.3 “Related Organizations” provides guidance on
bank holding companies, subsidiaries, and other affiliates. This guidance includes a discussion of
Federal Reserve Act (FRA) §23A and §23B, which regulate transactions between banks and their
affiliates. However, Section 4.3 “Related Organizations” has not been revised since August 1999,
before the passage of GLBA in November 1999.


                                                 9
The Supplemental ED Module, “Related Organizations,” provides model examination procedures
applicable to bank holding companies, subsidiaries, and other affiliates. Guidance includes
consideration of certain control and performance objectives (i.e., standards) and associated risks.
Specific guidance is given to topical areas such as, “Evaluation of Affiliate Operations,” and
“Compliance with Sections 23A and 23B, Part 362, and Other Applicable Regulations.” The
“Related Organizations” ED Module was revised in October 2000 but does not address certain key
aspects of GLBA.

For example, topics in Section 4.3 and the Supplemental ED Module that are affected by GLBA and
are not updated include: bank holding companies (GLBA authorizes a new type of holding company,
the financial holding company); limited purpose banks; 14 affiliates, including transactions between
banks and their affiliates; subsidiaries (GLBA authorizes a new type of subsidiary, the financial
subsidiary); and examination authority. Some of these topics have been addressed in RD Memos
(see Appendix V). However, without updated guidance on “Related Organizations” examination
staff do not have readily available and detailed guidance and a risk exists that bank examinations
might not consider GLBA’s effects in these areas.

In addition to general topical areas in “Related Organizations” that are affected by GLBA and should
be updated, we identified certain related GLBA sections for which updated guidance is not complete:

        •    GLBA §107. Cross Marketing Restriction; Limited Purpose Bank Relief;
             Divestiture

             GLBA §107. Cross Marketing Restriction; Limited Purpose Bank Relief; Divestiture,
             amends restrictions on limited purpose banks and their holding companies and affiliates.
             DOS has drafted guidance on §107 but has not finalized and incorporated the changes
             yet.

        •    Amended Bank Holding Company Act §4(n) “Authority to retain limited non-
             financial activities and affiliations,” and §4(o) “Regulation of certain financial
             holding companies”

             GLBA §103. Financial Activities, subsection (a), amends Bank Holding Company Act
             (BHCA) §4(n) and §4(o) and places restrictions on companies that are not bank holding
             companies or foreign banks and that become financial holding companies. The
             restrictions pertain to cross marketing products between depository institutions and
             certain affiliates. The restrictions also prohibit depository institutions from engaging in
             certain specified types of transactions, called “covered transactions,” with nonfinancial
             affiliates. 15 DOS has determined that an implementation plan is not necessary for

14
  Limited purpose banks – also known as nonbank banks or CEBA banks, after the Competitive Equality Banking
Act of 1987 – are banks that either make commercial loans or accept demand deposits, but not both, and are insured
by the FDIC. Companies that own them are not treated as bank holding companies as long as they comply with
certain restrictions.
15
  Amended BHCA §4(n). “Authority to retain limited non-financial activities and affiliations,” allows a company
that is not a bank holding company or a foreign bank and becomes a financial holding company to continue to
engage in any activity and retain direct or indirect ownership of a company engaged in any activity. Certain

                                                        10
             amended BHCA §4(n) and §4(o) because it believes they are a limited part of the statute
             with no evidence of immediate impact on state nonmember banks. 16 Because GLBA
             §103(a) amendments to BHCA §4(n) and §4(o) are not addressed, there is a possibility
             that examiners may not be aware of these special types of financial holding companies
             and the restrictions on their depository institutions related to cross marketing and covered
             transactions.

         •   GLBA §121(b) “Sections 23A and 23B of the Federal Reserve Act”

             GLBA §121. Subsidiaries of National Banks, subsection (a) In General, authorizes
             national banks to conduct in “financial subsidiaries” certain activities that are “financial
             in nature.” Similar, but not identical, authorities for owning financial subsidiaries are
             extended to state (member and nonmember) banks. GLBA §121(b) “Sections 23A and
             23B of the Federal Reserve Act,” requires that the financial subsidiary be treated as an
             affiliate – the bank must apply the same limits on transactions with affiliates to its
             transactions with the financial subsidiary. A number of exceptions and special provisions
             apply. 17

             DOS has issued an RD Memo, Activities of Insured State Banks and Their Subsidiaries
             (no. 2001-051, dated November 15, 2001) providing guidance on the implementation of
             the provisions of GLBA concerning financial subsidiaries of state nonmember banks.
             The RD Memo states, “The state nonmember bank must comply with the amendments to
             sections 23A and 23B of the Federal Reserve Act made by section 121(b) of the GLBA
             that require certain ongoing transactional restrictions.” More detailed guidance is not
             provided on the §121(b) limits on transactions because DOS believes examiners will


requirements apply. (See BHCA §(4)(n)(1)(A-C).) Amended BHCA §(4)(n)(5). “Cross Marketing Restrictions
Applicable to Commercial Activities,” limits the ability of depository institutions to engage in cross marketing with
nonfinancial subsidiaries of the same financial holding company. Amended BHCA §(4)(n)(6). “Transactions with
Nonfinancial Affiliates,” prohibits depository institutions from engaging in any “covered transactions” with
nonfinancial affiliates owned by the same holding company. “Covered transactions” are: loans to the affiliate;
investments in the affiliate’s securities; most purchases of assets from the affiliate; acceptance of the affiliate’s
securities as collateral for any loan; and guaranteeing in any manner any extension of credit to the affiliate.
Amended BHCA §4(o) “Regulation of certain financial holding companies,” allows a company that is not a bank
holding company or a foreign bank and becomes a financial holding company to continue to engage in “activities
related to the trading, sale, or investment in commodities…” Certain requirements apply. Amended BHCA
subsection (4)(o)(3) prohibits the cross marketing of products or services between commodities firms and depository
institutions held by the same financial holding company.
16
   While likely quite limited, the overall impact of these provisions on state nonmember banks cannot be determined
because the Federal Reserve Board does not explicitly identify these special types of financial holding companies in
its National Information Center database used by the FDIC for holding company information.
17
   FRA §23A and §23B place strict limitations on transactions between banks and affiliates. GLBA §121(b) applies
these same restrictions to transactions between banks and their financial subsidiaries. GLBA §121(b) makes
exceptions in amended FRA §23A(e)(3)(A) Exception from Limit on Covered Transactions with Any Individual
Financial Subsidiary, and §23A(e)(3)(B) Exception for Earnings Retained by Financial Subsidiaries. Additional
restrictions are made in amended §23A(e)(4) Anti-Evasion Provision, which addresses investments in, and
extensions of credit to, financial subsidiaries by bank affiliates.


                                                         11
             identify them by reading FRA §23A and §23B directly. 18 However, lack of explicit
             guidance on the exceptions and special provisions in GLBA §121(b) (specifically,
             amendments to FRA §23A(e)(3) Exceptions for Transactions with Financial Subsidiaries
             and §23A(e)(4) Anti-Evasion Provision, which addresses investments in, and extensions
             of credit to, financial subsidiaries by bank affiliates) increases the risk that transactions in
             violation of these sections might not be examined and detected since these detailed
             provisions are not readily available. State nonmember bank and financial subsidiary
             transactions with affiliates is an area of risk for GLBA.

The DOS practice of making comprehensive, as opposed to piecemeal, revisions to the Manual of
Examination Policies has affected the timing of the Section 4.3 revision. According to DOS staff
members, they do not consider Section 4.3 to warrant priority over other work. The Supplemental
ED Module on related organizations has not been revised because DOS staff wants to revise Section
4.3 first.

DOS Examination Guidance on Bank Recordkeeping Requirements

DOS is awaiting final regulations before issuing guidance on GLBA §204. Information Sharing.
§204 requires federal banking regulatory agencies, after consultation with the SEC, to establish
recordkeeping requirements for banks relying on the exceptions from the definitions of broker
and dealer contained in §201. Definition of Broker, and §202. Definition of Dealer. These
recordkeeping requirements must be sufficient to demonstrate compliance with the terms of the
exceptions. The resultant records are to be made available to the SEC upon request.

The SEC published interim final rules for §201 and §202, effective May 11, 2001, in response to
the legislatively imposed implementation date of May 12, 2001. The SEC is not enforcing the
interim final rules and plans to reissue proposed rules for public comment. The eventual
implementation date for final rules is uncertain. The FDIC and other banking regulatory
agencies are coordinating with the SEC to issue regulations for §204. Information Sharing, at or
near the time when the SEC issues final regulations for §201 and §202. DOS cannot issue
detailed guidance on §204 until final regulations are issued. Because banks have not been asked
by the SEC to comply with §201 and §202 until final regulations are issued, the lack of DOS
guidance has no effect.

Recommendation

We recommend that the Director, DOS:

        (2) Expedite comprehensive revisions of Manual of Examination Policies Section 4.3
            “Related Organizations” and the Supplemental ED Module, “Related Organizations,”
            to address relevant sections and provisions of GLBA.



18
  GLBA §121(b) limits on transactions were described in an earlier version of the RD Memo, “Activities of Insured
State Banks and Their Subsidiaries,” but the description was dropped when published FDIC regulations included the
amendments to FRA §23A and §23B.


                                                       12
DOS INTERNAL DATABASES

DOS headquarters has not been identifying banks that are directly or indirectly engaged in
GLBA-affected activities. Several internal databases used by DOS to describe bank and holding
company structure information do not identify GLBA-related entities such as financial holding
companies and financial subsidiaries. The DOS databases for bank and holding company
structure information also do not include nonbank affiliates such as insurance companies and
securities firms. Absent this data, examiners may not be able to fully assess the overall extent of
GLBA-related activity, identify potential risks related to transactions between banks and their
financial services affiliates, and, consistent with the premise of functional regulation, coordinate
with primary regulators overseeing financial activities corresponding to their areas of expertise.

The bank recordkeeping requirements in §204. Information Sharing, could identify banks engaged in
securities-related activities that are exempted from SEC oversight. This information would be of
help in examinations and for coordinating with the SEC. The impact of GLBA §204. Information
Sharing, on DOS information systems should be planned for. Without planning, delays in
coordination with other FDIC Divisions and in obtaining the necessary budget authorization could
result.

Case Administration System, ViSION, and SIMS Databases Should Be Revised to Add Fields
for Financial Holding Companies

As part of our audit procedures, we reviewed the Case Administration System, Virtual Supervisory
Information On the Net (ViSION), and Structure Information Management System (SIMS)
databases maintained and used in-house by DOS to determine whether they identify certain GLBA
newly-authorized entities:

       •   Financial holding companies. GLBA authorizes a bank holding company to elect to
           become a financial holding company.
       •   Financial subsidiaries. GLBA authorizes state nonmember banks to hold an interest in
           this new type of subsidiary.
       •   Separately identifiable departments. GLBA gives banks the option of conducting
           investment advisory services through a “separately identifiable department.”

Our review determined that the Case Administration System and ViSION do not have fields to
identify financial holding companies, financial subsidiaries, or separately identifiable departments.
SIMS does not have a field to identify financial holding companies. (Because it is intended to
identify a bank’s branch system, SIMS does not otherwise identify bank internal structure or
subsidiaries.)

As of December 31, 2001, bank holding companies of 480 of 4,971 state nonmember banks had
elected to become financial holding companies. As of December 31, 2001, there was one financial
subsidiary and one separately identifiable department. In conjunction with other revisions to the
software programs, DOS internal databases should be revised to add fields for financial holding
companies. The databases should be revised to identify financial subsidiaries and separately
identifiable departments depending on whether and when they become more numerous.

                                                  13
Our review of DOS databases also included the ViSION Application Tracking System (ViSION
AT). FDIC Regulations Part 362.E. requires banks to notify the FDIC if they start or acquire a
financial subsidiary. DOS should keep records of these notifications in ViSION AT. We
determined that ViSION AT does not have a field for recording bank notifications of financial
subsidiaries and that, for the time being, any such notices received are to be entered into another
ViSION AT field intended for other purposes. DOS plans to add a field for financial subsidiary
notifications to ViSION AT as part of a more comprehensive revision.

Changes to Information Systems Based on Rules and Regulations for §204. Information
Sharing, Should Be Anticipated

After the SEC promulgates final rules for GLBA §201. Definition of Broker and §202. Definition of
Dealer, both of which replace the broad exemption banks had from SEC regulation with more
limited exemptions, the FDIC will issue rules for §204. Information Sharing, which requires federal
banking agencies to establish recordkeeping requirements for banks relying on the limited
exemptions contained in §201 and §202. If this information is not contained in DOS’s internal
databases, its ability to identify banks engaged in certain types of securities-related activities will be
impacted. Early analysis of GLBA §204’s impact on DOS information systems is important because
of the time requirements for coordinating with the Division of Information Resources Management
and the need to budget project funds in order to accomplish system modifications.

Recommendations

The Director, DOS, should:

    (3) In conjunction with other revisions to the software programs, revise the Case
        Administration System, ViSION, and SIMS databases to add fields for financial holding
        companies.

    (4) Based on rules and regulations for §204. Information Sharing, plan for changes to
        information systems in order to identify banks engaged in activities exempted from SEC
        regulation.


CORPORATION COMMENTS AND OIG EVALUATION

On July 22, 2002, the Director of DSC provided a written response to the draft report. The response
is presented in Appendix VI to this report. We also had subsequent discussions with DSC staff to
clarify aspects of the written response. In addition, because portions of the report mentioned
activities of the Securities and Exchange Commission (SEC), we provided a copy of the draft to the
SEC for review. SEC’s response is presented in Appendix VII and the Commission had no
comments.

Prior to responding to each of the report’s four recommendations, DSC stated in its response, “We
anticipate that your final report will clarify that the FDIC is in compliance with all portions of GLBA
that required action by the FDIC such as rulemaking or establishing procedures and that the


                                                   14
exceptions noted in your report are considered technical in nature and should not impact the safety
and soundness examination of any institution.”

As described in Appendix I, our audit objectives, scope, and methodology do not provide for an
overall conclusion on whether the FDIC is in compliance with all portions of GLBA. The audit
objectives addressed DOS’s coordination with other regulatory agencies, updates of policies and
procedures, and identification of banks engaged in GLBA activities. The audit procedures were
limited to GLBA Titles I, II, and III, Subtitle A. Overall assessments of whether the reported
exceptions are “technical in nature” and might “impact the safety and soundness examination of any
institution” are also beyond the scope of this audit. However, throughout the report we acknowledge
DOS’s many accomplishments in implementing GLBA provisions.

DSC concurred with each of our four recommendations. A summary of each recommendation
and DSC’s comments follows:

Recommendation 1: In conjunction with the Legal Division and the SEC, develop procedures
for information sharing consistent with GLBA §115. Examination of Investment Companies,
§217. Removal of the Exclusion from the Definition of Investment Adviser for Banks that
Advise Investment Companies, §220. Interagency Consultation, and §222. Statutory
Disqualification for Bank Wrongdoing.

DSC management concurred with the recommendation. The FDIC has actively attempted to
establish a revised Memorandum of Understanding (MOU) with the SEC but the SEC has devoted
its resources elsewhere and is formulating targeted MOUs where necessary. In DSC’s opinion, the
cited sections are “self-executing” and do not mandate any action or are under the jurisdiction of the
SEC. DSC’s view is that the information sharing requirements and accompanying procedures have
been addressed in great detail in the revised Trust Manual. According to DSC, there have been no
instances where the revised trust examination procedures have been shown to be inadequate.

DSC’s effort to revise the existing 1987 MOU would suggest their belief that an update is necessary.
The value of the MOU is to establish procedures for the exchange of information between the SEC
and FDIC. The information sharing requirements have been addressed in the revised Trust Manual
but the procedures should be established and explained in an agreement or other guidance to the
staff. Also, as stated in the audit report, some of the affected activities might occur outside of a
bank’s trust department.

In subsequent discussions, DSC staff stated that they are constrained from taking further action on
this recommendation pending further action by the SEC. However, there might be alternative
actions available, such as DSC issuing staff guidance on information sharing procedures unilaterally
or elevating the issue to a higher level of management within the FDIC for resolution. DSC
management should reconsider its response and reply within 30 days of the issuance of this report.

This recommendation is unresolved, undispositioned, and open.




                                                 15
Recommendation 2: Expedite comprehensive revisions of Manual of Examination Policies
Section 4.3 “Related Organizations” and the Supplemental ED Module, “Related
Organizations,” to address relevant sections and provisions of GLBA.

DSC management concurred with the recommendation. According to DSC, most of the items cited
under this finding have already been addressed in revisions to DSC’s policies and procedures. Each
item is specifically addressed as follows:

       •   DOS Policies and Procedures on “Related Organizations”

       DSC management states that DOS Manual of Examination Policies Section 4.3 entitled
       “Related Organizations” was updated February 2002 to include GLBA-related
       guidance. A decision has been made to update the supplemental ED module on “Related
       Organizations” when issues related to FRB proposed Regulation W concerning Federal
       Reserve Act (FRA) §23A and §23B are settled.

       On May 7, 2002 we were informed that the revised Section 4.3 “Related Organizations” was
       “in printing.” As of July 31, 2002 the revised Section 4.3 was not included in the Manual of
       Examination Policies on DSC’s website.

       The supplemental ED module on “Related Organizations” contains substantial
       guidance on matters other than FRA §23A and §23B and DSC did not provide a
       timeframe for when issues related to FRB proposed Regulation W will be settled.

       •   GLBA §107. Cross Marketing Restriction; Limited Purpose Bank Relief;
           Divestiture

       DSC states that this has been addressed in the Manual of Examination Policies Section 4.3
       “Related Organizations” revision.

       •   Amended Bank Holding Company Act §4(n) “Authority to retain limited
           nonfinancial activities and affiliations,” and §4(o) “Regulation of certain financial
           holding companies”

       In consultation with the Legal Division, DSC states that any guidance related to this area
       should come from the FRB and not the FDIC. In subsequent discussions, however, DSC
       staff indicated that guidance would be issued pending further action by the FRB.

       Our recommendation was that Section 4.3 “Related Organizations” identify GLBA’s
       authorization of “companies that are not bank holding companies or foreign banks” to
       become financial holding companies and related restrictions pertaining to cross
       marketing products and covered transactions with depository institutions. We were not
       recommending the type of interpretive guidance cited in DSC’s response.




                                                16
       •   GLBA §121(b) “Sections 23A and 23B of the Federal Reserve Act”

       DSC states that it has chosen not to issue interpretive guidance on FRA §23A and §23B
       coverage of financial subsidiaries until outstanding issues are resolved with the FRB related
       to proposed Regulation W affecting transactions between banks and their affiliates. DSC
       did not provide a timeframe for when issues related to FRB proposed Regulation W will be
       settled.

       Again, we were not recommending the type of interpretive guidance cited in DSC’s
       response. Section 4.3 “Related Organizations” guidance on financial subsidiaries could
       cite the exceptions and special provisions of GLBA §121(b) - specifically, amendments to
       FRA §23A(e)(3) Exceptions for Transactions with Financial Subsidiaries and
       §23A(e)(4) Anti-Evasion Provision, which address investments in, and extensions of credit
       to, financial subsidiaries by bank affiliates.

       •   DOS Examination Guidance on Bank Recordkeeping Requirements

       DSC is awaiting final regulations from the SEC before issuing guidance on GLBA §204.
       Information Sharing. (The report makes no recommendation concerning this matter.)

DSC management should reconsider its response and reply within 30 days of the issuance of this
report. The reply should provide a timeframe for when issues related to FRB proposed Regulation
W and FRA §23A and §23B will be settled. If the timeframe is unknown or uncertain, then issuance
of GLBA-related guidance in the supplemental ED module on “Related Organizations” should be
considered. The reply should address when revised Section 4.3 “Related Organizations” will be
included in the Manual of Examination Policies on DSC’s website. DSC should address in the reply
its reconsideration of whether GLBA’s authorization of “companies that are not bank holding
companies or foreign banks” to become financial holding companies and related restrictions
pertaining to cross marketing products and covered transactions with depository institutions should
be described in the manual. Finally, the reply should address management’s reconsideration of
whether guidance on financial subsidiaries could cite the exceptions and special provisions in GLBA
§121(b).

This recommendation is unresolved, undispositioned, and open.

Recommendation 3: In conjunction with other revisions to the software programs, revise the
Case Administration System, ViSION, and SIMS databases to add fields for financial holding
companies.

DSC management concurred with the recommendation. DSC stated that the Case Administration
System is being converted to become the Case Administration module in ViSION. The new Case
Administration module in ViSION will identify information about financial holding company
operations in the fourth quarter of 2002.




                                                17
On June 30, 2002, SIMS was transferred to the Division of Insurance and Research. A modification
to SIMS that will, among other things, identify financial holding companies, is planned for the fourth
quarter of 2002.

This recommendation is resolved, undispositioned, and open.

Recommendation 4: Based on rules and regulations for §204. Information Sharing, plan for
changes to information systems in order to identify banks engaged in activities exempted from
SEC regulation.

DSC management concurred with the recommendation. DSC states that changes to information
systems for §204. Information Sharing will be included in the Specialty Examination Tracking
System which is planned for revision in 2003. However, in subsequent discussions DSC said the
changes cannot be made until the SEC issues final regulations for §201. Definition of Broker and
§202. Definition of Dealer and the date of those final regulations is uncertain.

Because of the time requirements for coordinating with the Division of Information Resources
Management and the need to budget project funds in order to accomplish system modifications, DSC
management should reconsider its response and reply within 30 days of the issuance of this report.
In its reply, management should address whether the identification of individual depository
institution exemptions from broker and dealer requirements, as provided for in §201 and §202, could
be achieved based upon a reading of the law and absent final SEC regulations.

This recommendation is unresolved, undispositioned, and open.




                                                 18
                                                                                      APPENDIX I
                      OBJECTIVES, SCOPE, AND METHODOLOGY

The audit addressed DOS implementation of GLBA provisions that authorize new affiliations among
banks, securities firms, insurance companies, and other financial services providers, or that modify
regulatory agency authorities. Of GLBA’s seven titles, we focused on the provisions of three that we
determined were most relevant: Title I – Facilitating Affiliation Among Banks, Securities Firms, and
Insurance Companies; Title II – Functional Regulation; and Title III – Insurance, Subtitle A – State
Regulation of Insurance.

The audit objectives were to determine whether: (1) DOS has established coordination
arrangements for GLBA activities with other regulatory agencies; (2) DOS policies and
procedures have been updated to address the restrictions and safeguards in GLBA; and (3) DOS
is identifying banks that are directly or indirectly engaged in GLBA activities. The audit focused
on DOS headquarters and did not extend to regional office and examiner activities.

We reviewed GLBA to identify: financial activities and affiliations authorized by the legislation;
requirements or qualifications to engage in the financial activities; limitations on transactions and
other relations between state nonmember banks and their holding companies, affiliates and
subsidiaries; authorities specifically granted to the FDIC to examine and regulate; and provisions
requiring the FDIC to coordinate with other regulatory agencies. We assessed GLBA sections
meeting any of these criteria to determine whether DOS should address them and then reviewed
applicable DOS guidance, including RD Memos, ED Modules, the Manual of Examination Policies,
and the Trust Examination Manual.

We analyzed databases used by DOS for bank and holding company structure information to
determine if they identify GLBA-authorized entities (i.e. financial holding companies, financial
subsidiaries, and ‘separately identifiable departments’). We reviewed the Case Administration
System, Virtual Supervisory Information On the Net (ViSION), and Structure Information
Management System (SIMS). We also analyzed ViSION Application Tracking System (ViSION
AT) which, among other things, is to record bank notifications of starting or acquiring financial
subsidiaries.

We identified Consolidated Reports of Condition and Income (Call Report) schedules providing
evidence of GLBA-related activities and then obtained Call Report data to assess the extent of such
activity. We reviewed various Federal Reserve System regulatory reports and obtained Federal
Reserve System data on bank holding companies to determine how many state nonmember bank
holding companies have elected to become financial holding companies.

We reviewed articles and speeches concerning GLBA and its effect on the financial services
industry. We analyzed relevant FDIC rules and regulations and DOS policies and procedures (both
draft and final). We evaluated the “Gramm-Leach-Bliley Act Corporate Project List” maintained by
the FDIC Legal Division to monitor the status of FDIC actions addressing sections of the law and
interviewed DOS and Legal Division management and staff in Washington.




                                                 19
The limited nature of the audit objectives did not require assessing internal management controls.
We did not (1) test internal controls, (2) review Government Performance and Results Act
reporting, (3) test for fraud or illegal acts, (4) test for compliance with laws and regulations, or (5)
determine the reliability of computer-processed data obtained from the FDIC’s computerized
systems.

Fieldwork was performed from May 2001 through April 2002. The audit was conducted in
accordance with generally accepted government auditing standards.




                                                    20
                         APPENDIX II
GLBA TABLE OF CONTENTS




         21
22
23
24
                                                                                  APPENDIX III
                 STATE NONMEMBER BANK NONINTEREST INCOME

Consolidated Reports of Condition and Income (Call Report) Schedule RI – Income Statement, line
item 5. Noninterest Income, includes various income-producing activities that might be affected by
GLBA.

Call Report data for the quarter ended December 31, 2001 identified the following numbers of state
nonmember banks reporting these various types of noninterest income:

Line 5         Description            No. of SNM       % of SNM          Total          Relevant
                                     banks (4,971)      banks         ($ millions)       GLBA
                                                                                       Section (§)
  a      Income from fiduciary                  856           17%            2,347        201, 202,
         activities                                                                        204, 221
  c      Trading revenue                         56              1              31         202, 204
  d      Investment banking,                  1,174             24             498        201, 204,
         advisory, brokerage, and                                                          205, 222
         underwriting fees and
         commissions
  e      Venture capital revenue                 24             0.5             (1)          121
  f      Net servicing fees                     869              18          1,324 201, 204, 211
  g      Net securitization income               30             0.6          1,819      201, 204
  h      Insurance commissions                2,433              49            963 301, 305, 307
         and fees
   l     Other noninterest income             4,908             99           8,510


GLBA sections that might affect these activities are listed under “Relevant GLBA Sections (§).”
The titles of the relevant GLBA sections are:

§121. Subsidiaries of National Banks
§201. Definition of Broker
§202. Definition of Dealer
§204. Information Sharing
§205. Treatment of New Hybrid Products
§211. Custody of Investment Company Assets by Affiliated Bank
§221. Treatment of Bank Common Trust Funds
§222. Disqualification for Bank Wrongdoing
§301. Functional Regulation of Insurance
§305. Insurance Customer Protections
§307. Interagency Consultation

For certain GLBA sections, having an effect on bank activity is probable. Sections 201 and 202 are
relevant because they relate to all bank securities activities – specifically, whether banks must
register with the SEC as brokers or dealers for such activities, with a resultant determination of

                                                25
regulatory authority. Section 204 establishes record-keeping requirements in support of bank
exemptions from having to register with the SEC as brokers or dealers.

Section 301 provides that states (as opposed to the banking agencies) are the functional regulators of
insurance. Section 305 establishes insurance customer protections. Section 307 requires that
banking agencies and state insurance regulators share supervisory information concerning bank
insurance activities.

Sections 201, 202, 204, 301, 305 and 307 do not authorize new activities but relate to most, if not
all, state nonmember bank security and insurance activities.

Due to its nondescript nature, it could not be determined whether “Other Noninterest Income” might
or might not be affected by GLBA. However, it is worth noting that 4,908 or 99 percent of state
nonmember banks reported $8.5 billion in revenues under this category.

The data show that substantial numbers of state nonmember banks are involved in financial
activities affected by GLBA. This activity is both ‘in-house’ and includes subsidiaries. GLBA’s
effect on financial holding companies, bank holding companies, and other bank affiliates is not
included.




                                                 26
                                                                           APPENDIX IV

  STATUS OF ITEMS ON THE FDIC “GLBA CORPORATE PROJECT LIST”
                        (as of May 2, 2002)

                                                                    Pending     Items
 GLBA                                                   Action       Items     Awaiting
 Section                   Subject                     Completed   Requiring    Other
                                                                     FDIC      Agency
                                                                     Action     Action
Title I     Facilitating Affiliation Among
            Banks, Securities Firms, and
            Insurance Companies
103(a)      New affiliations and merchant
            banking.                                      X
103(a)      CRA regulations for new activities.           X
103(a)      Enforcement of qualifications.                X
103(a)      Grandfather for certain commercial
            and commodities activities.                   X
103(b)      CRA requirements to become a
            financial holding company.                    X
104         Operation of state law with respect to
            insurance activities.                         X
106         Amendment to prohibition on deposit
            production offices.                                                   X
107         CEBA bank relief.                             X
108         Study regarding use of subordinated
            debt to protect financial system.             X
109         Study regarding accessibility of small
            business and farm loans.                                              X
111(see     Functional regulation.
also                                                                              X
112(b))
112(a)      Authority of state insurance regulator
(see also   and SEC.                                                              X
112(b))
113 (see    Limitation on actions on FRB.
also                                                                              X
112(b))
112(b)      Subsidiaries of depository institutions.
                                                                                  X
114         Prudential Safeguards.                        X
115         Examination of investment
            companies.                                                X
116         Divestiture Procedures.                       X
117         FDIC resources.                               X

                                             27
                                                                  Pending     Items
 GLBA                                                 Action       Items     Awaiting
 Section                   Subject                   Completed   Requiring    Other
                                                                   FDIC      Agency
                                                                   Action     Action
118         Repeal of savings bank provision of
            BHCA.                                       X
121(a),     Subsidiaries of national banks.
(b), (c)                                                X
121(d)      Bank Subsidiaries/Section 24/Part
            362.                                        X
122         Merchant Banking.                           X
132         Data Sharing.                               X
Title II    Functional Regulation
201, 202,   Definitions of broker and dealer under
203, and    Securities Exchange Act, and
206         registration for certain sales of           X
            securities offering.
204         Information sharing.                                    X
205         New hybrid products.                        X
211         Investment company assets.                  X
212         Lending to an affiliated investment
            company.                                    X
213         Independent directors.                      X
214         SEC Disclosure Authority.                   X
215, 216,   Definition of broker and dealer under
218, 219    ICA and IAA.                                X
217         Banks as investment advisors for
            registered investment companies.            X
220         Interagency Consultation.                   X
221         Bank Common Trust Funds.                    X
222         Disqualification for bank wrongdoing.       X
231         SEC Supervision.                            X
241         Consultation.                               X
Title III   Insurance
301, 304,   Functional regulation of insurance
306, and    activities by State insurance
307         regulator/preemption standards.             X
305         Insurance sales consumer protection
            regulations/consumer grievance              X
            process.
307         Interagency consultation between
            appropriate federal banking agencies        X
            and state insurance regulators.
Title IV    Unitary Savings and Loan Holding


                                            28
                                                                 Pending     Items
 GLBA                                                Action       Items     Awaiting
 Section                   Subject                  Completed   Requiring    Other
                                                                  FDIC      Agency
                                                                  Action     Action
             Companies
Title V      Privacy
501(a),      Privacy Regulations.
502-504,                                               X
509(4),
(10), (11)
501(b)     Standards on Information Security.          X
506        Fair Credit Reporting Act
           Regulations.                                            X
507        State Law protection.                       X
508        Study of information sharing
           practices.                                                          X
521-525; Pretext Calling/Administrative
527        Enforcement.                                X
526        Report on Efficacy of Remedies.             X
Title VI   Federal Home Loan Bank System
           Modernization
Title VI   Federal Home Loan Bank
           Amendments.                                 X
Title VII Other Provisions
Subtitle A ATM fee disclosures.                        X
711        CRA Sunshine Regulations.                   X
712        CRA Small Bank Relief.                      X
713        FRB study on CRA lending.                   X
715        Treasury study on the responsiveness
           to community needs for financial            X
           services.
722        Plain language requirement for federal
           banking agencies' regulations.              X
729        Study and report on adapting existing
           legislative requirements to online          X
           banking and lending.
730        Clarification of Source of Strength
           Doctrine (BNE amendment).                                           X
731        Interest rates for branches of out-of-
           state banks.                                X
735        Stock Loan Limit repealed.                  X
736        Elimination of SAIF and BIF special
           reserves.                                   X
737        Bank officers and directors serving as
           officers and directors of public                        X

                                          29
                                                            Pending     Items
GLBA                                            Action       Items     Awaiting
Section                  Subject               Completed   Requiring    Other
                                                             FDIC      Agency
                                                             Action     Action
          utilities.
739       Conversion of Federal Savings
          Associations.                                                   X
740       Grand Jury proceedings.                 X

          Total count:
   62                                             49          4           9




                                          30
                                                                                  APPENDIX V
              DOS GUIDANCE ON GLBA SECTIONS THAT REQUIRE
            CHANGES TO EXAMINATION POLICIES AND PROCEDURES
                          (as of November 30, 2001)


We identified the following GLBA Sections as requiring changes or additions to DOS
examination policies and procedures.(i) The date the guidance was issued is listed under the type
of guidance (i.e., Regional Directors Memorandum (RD Memo), Examination Documentation
Module (ED Module), Manual of Examination Policies (Exam Manual), and Trust Examination
Manual (Trust Manual)). This chart is intended to show guidance that has been issued, not what
remains to be done. Not all columns are applicable for each GLBA section listed.

                                                           DOS GUIDANCE

       GLBA Section              Effective   RD Memo          ED         Exam          Trust
                                  Date       (number)        Module      Manual       Manual
Title I – Facilitating
Affiliation Among Banks,
Securities Firms, and
Insurance Companies
103. Financial Activities,
subsection (a) In General –
amends Section 4 of the Bank
Holding Company Act of
1956 (BHCA):
BHCA 4(n). Authority to          3-11-00
retain limited non-financial                        (ii)
activities and affiliations.
BHCA 4(o). Regulation of         3-11-00
certain financial holding                           (ii)
companies.
107. Cross Marketing             3-11-00
Restriction; Limited Purpose                        (ii)
Bank Relief; Divestiture
112. Authority of State          3-11-00     1-10-01
Insurance Regulator and                      (01-002)
Securities and Exchange
Commission
115. Examination of              3-11-00     1-10-01
Investment Companies                         (01-002)

121(a). Financial Subsidiaries   3-11-00     6-26-00
of National Banks                            (00-037)
                                                 (iii)
121(b). Sections 23A and 23B     3-11-00     6-26-00

                                               31
         GLBA Section                   Effective      RD Memo            ED            Exam             Trust
                                         Date           (number)         Module         Manual          Manual
of the Federal Reserve Act                            (00-037)
                                                              (iv)
121(d). Safety and Soundness           3-11-00        6-26-00
Firewalls for State Banks with                        (00-037)
Financial Subsidiaries
Title II – Functional
Regulation
201. Definition of Broker              5-12-01              (v)                                       5-23-01
202. Definition of Dealer              5-12-01              (v)                                       5-23-01
204. Information Sharing               5-12-01              (vi)                                      5-23-01
213. Independent Directors             5-12-01                                                        5-23-01
217. Removal of the                    5-12-01                                                        5-23-01
Exclusion from the Definition
of Investment Adviser for
Banks that Advise Investment
Companies
220. Interagency Consultation          5-12-01                                                        5-23-01
221. Treatment of Bank                 5-12-01                                                        5-23-01
Common Trust Funds
241. Consultation                      11-12-99       8-29-00
                                                      (00-048)
Title III – Insurance,
Subtitle A – State
Regulation of Insurance
301. Functional Regulation of          11-12-99       1-10-01
Insurance                                             (01-002)
305. Insurance Customer                11-12-99       9-5-01
Protections                                           (01-035)
307. Interagency Consultation          11-12-99       1-10-01
                                                      (01-002)
                                                      Also,
                                                      3-29-01
                                                      (01-016)
_____________________
(i) Only GLBA sections requiring DOS guidance for examiners are included in this analysis. Additional GLBA
sections were included in the audit procedures.
(ii) DOS has not issued guidance on these GLBA sections. This is cited under the finding, DOS Policies and Procedures
on “Related Organizations.”
(iii) The DOS RD Memo, “Implementation of the Provisions of the Gramm-Leach-Bliley Act that Govern the Conduct
of Financial Activities by Insured State Nonmember Bank Subsidiaries” (00-037, 6/26/2000) was superceded by
“Activities of Insured State Banks and Their Subsidiaries” (01-051, 11/15/2001).
(iv) DOS guidance on this GLBA section should provide more detail. This is cited under the finding, DOS Policies and
Procedures on “Related Organizations.”
(v) The SEC published interim final rules, without public comment, on May 11, 2001 in response to the legislatively
imposed implementation date of May 12, 2001. The SEC plans to reissue rules in draft form for public comment and the
eventual implementation date is uncertain. Nonetheless, DOS has addressed these GLBA sections in its updated Trust


                                                         32
Examination Manual.
(vi) DOS is continuing to work with other financial regulatory agencies on the development of regulations for this
section. However, regulations and internal guidance cannot be issued until the SEC issues final regulations for Sections
201 and 202. See endnote v.




                                                           33
                       APPENDIX VI

CORPORATION COMMENTS




         34
35
36
37
                                         APPENDIX VII

SECURITIES AND EXCHANGE COMMISSION COMMENTS




                    38
